<html>
<title> - SUBCOMMITTEE HEARING ON MEETING THE WORKFORCE DEMANDS OF SMALL BIO-ENERGY BUSINESSES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
                    SUBCOMMITTEE HEARING ON MEETING
                     THE WORKFORCE DEMANDS OF SMALL
                         BIO-ENERGY BUSINESSES

=======================================================================

                SUBCOMMITTEE ON CONTRACTING & TECHNOLOGY
                      COMMITTEE ON SMALL BUSINESS
                 UNITED STATES HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2007

                               __________

                          Serial Number 110-31

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
36-106                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


                   HOUSE COMMITTEE ON SMALL BUSINESS

                NYDIA M. VELAZQUEZ, New York, Chairwoman


WILLIAM JEFFERSON, Louisiana         STEVE CHABOT, Ohio, Ranking Member
HEATH SHULER, North Carolina         ROSCOE BARTLETT, Maryland
CHARLIE GONZALEZ, Texas              SAM GRAVES, Missouri
RICK LARSEN, Washington              TODD AKIN, Missouri
RAUL GRIJALVA, Arizona               BILL SHUSTER, Pennsylvania
MICHAEL MICHAUD, Maine               MARILYN MUSGRAVE, Colorado
MELISSA BEAN, Illinois               STEVE KING, Iowa
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
DAN LIPINSKI, Illinois               LYNN WESTMORELAND, Georgia
GWEN MOORE, Wisconsin                LOUIE GOHMERT, Texas
JASON ALTMIRE, Pennsylvania          DEAN HELLER, Nevada
BRUCE BRALEY, Iowa                   DAVID DAVIS, Tennessee
YVETTE CLARKE, New York              MARY FALLIN, Oklahoma
BRAD ELLSWORTH, Indiana              VERN BUCHANAN, Florida
HANK JOHNSON, Georgia                JIM JORDAN, Ohio
JOE SESTAK, Pennsylvania

                  Michael Day, Majority Staff Director

                 Adam Minehardt, Deputy Staff Director

                      Tim Slattery, Chief Counsel

               Kevin Fitzpatrick, Minority Staff Director

                SUBCOMMITTEE ON CONTRACTING & TECHNOLOGY

                      BRUCE BRALEY, IOWA, Chairman


HENRY CUELLAR, Texas                 DAVID DAVIS, Tennessee, Ranking
GWEN MOORE, Wisconsin                ROSCOE BARTLETT, Maryland
YVETTE CLARKE, New York              SAM GRAVES, Missouri
JOE SESTAK, Pennsylvania             TODD AKIN, Missouri
                                     MARY FALLIN, Oklahoma


                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page

Braley, Hon. Bruce...............................................     1
Davis, Hon. David................................................     3

                               WITNESSES


PANEL I
Harkin, Tom Hon., U.S. Senator...................................     4

PANEL II
Caupert, John, National Corn-to-Ethanol Research Center..........     8
Litterer, Ron, National Corn Growers Association.................     9
Rastetter, Bruce, Hawkeye Renewables.............................    11
Keir, Dr. Patricia, Eastern Iowa Community College District 
  Office.........................................................    13
Tiller, Dr. Kelly J., Agricultural Policy Analysis Center, The 
  University of Tennessee........................................    15
South, Dr. Colin R., Mascoma Corporation.........................    17

                                APPENDIX


Prepared Statements:
Braley, Hon. Bruce...............................................    33
Davis, Hon. David................................................    36
Caupert, John, National Corn-to-Ethanol Research Center..........    38
Litterer, Ron, National Corn Growers Association.................    52
Rastetter, Bruce, Hawkeye Renewables.............................    56
Keir, Dr. Patricia (and Attachments), Eastern Iowa Community 
  College District Office........................................    62
Tiller, Dr. Kelly J., Agricultural Policy Analysis Center, The 
  University of Tennessee........................................    72
South, Dr. Colin R., Mascoma Corporation.........................    77

                                 (iii)

  


                  SUBCOMMITTEE HEARING ON MEETING THE
                 WORKFORCE DEMANDS OF SMALL BIO-ENERGY
                               BUSINESSES

                              ----------                              


                        WEDNESDAY, JUNE 20, 2007

                     U.S. House of Representatives,
                   Subcommittee on Contracting & Technology
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2360, Rayburn House Office Building, Hon. Bruce Braley 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Braley, Clarke, Davis, and Chabot 
(ex officio).

              OPENING STATEMENT OF CHAIRMAN BRALEY

    ChairmanBraley. Good morning. I call this Subcommittee 
hearing to order to examine the issues of the workforce demands 
in the renewable fuels industry. We have a distinguished panel 
of witnesses today, and I am very excited about the opportunity 
to discuss this very important topic.
    I would first like to take a moment to thank the great 
panel of witnesses we have today, and I would like to extend a 
special thank you to my Senator, Tom Harkin, for taking time 
out of his extremely busy schedule to attend. His role as 
chairman of the Senate Agriculture Committee makes Senator 
Harkin an ideal witness to come testify on this issue. Senator 
Harkin was chiefly responsible for including the energy title 
in the 2002 Farm Bill and has been at the forefront of the bio-
energy boom throughout his long career in the United States 
Senate.
    Today, the Subcommittee will have the opportunity to 
explore the potential for sustaining the renewable fuel sector 
in rural America. Members will hear from expert witnesses on 
issues associated with industry growth and expansion as well as 
the need for future investment in human capital to address 
worker shortages.
    Growth in the renewable fuels industry has been a 
significant stimulus for the United States economy, 
particularly for small firms. More than 75 percent of all 
renewable fuels producers are small businesses. On average, 
these plants employ fewer than 50 people. These small 
businesses have been revitalizing stagnant local economies in 
rural America. In Iowa, where I live, the exploding renewable 
energy sector is creating thousands of jobs. As of early 2005, 
it was projected that ethanol could create over 5,000 direct 
and indirect jobs in my State and pay $82.4 million in wages 
per year.
    To meet the future demand of this expanding industry, 
however, it will be necessary to train thousands of new workers 
in the next 6 to 12 months. The increasing number of job 
opportunities has caused concerns about access to a trained 
workforce. As the demand for a highly skilled workforce to 
operate this industry emerges, plant managers are faced with 
the need for skilled workers to run the high-tech bio-energy 
facilities that are sprouting across this country. The human 
capital needs that these plants will face as more production 
facilities come on line present a serious challenge to the 
biofuels industry.
    The job skills needed to work in the bio-energy plants of 
today are much more sophisticated than the manual labor 
required at the grain elevators I worked at, in Iowa, growing 
up in the 1970s. Today's workers need computer training and lab 
skills to handle the increasingly complex tasks of processing 
large quantities of feedstocks into energy that fuels our 
Nation.
    In the ethanol sector alone, extensive and costly on-the-
job training is often required. Some States and local 
communities have begun to address this problem by creating 
training and mentoring programs at community colleges and at 
other institutions of learning. I believe that Congress must 
also take action to address this issue. We need to recognize 
this growing demand for skilled workers and technicians to meet 
the expected needs of the ag-based bio-energy sector, 
particularly for small businesses.
    That is why I have introduced legislation, H.R. 872, the 
National Endowment for Workforce Education and Renewables and 
Agriculture Act. The NEW ERA Act would enhance the training of 
instructors at educational facilities like community colleges 
in the areas of agricultural-based bio-energy research, 
technology, efficiency, and conservation. We need to act now to 
meet this growing demand to capitalize on the unique 
opportunity to transform our energy economy and to improve our 
international security by switching our energy focus from the 
Middle East to the Midwest.
    There is a promising future for the next generation of bio-
energy, including potential growth in the evolving cellulosic 
industry. Exciting potential in the bio-energy industry exists 
in every congressional district in this country. We need to 
provide opportunities for the skilled workforce that will be 
needed to take us to the next level of energy freedom.
    Despite all of the successes in the bio-energy business, we 
still have a long way to go. Though renewable fuels have grown 
exponentially over the past decade, they still make up less 
than 1 percent of current U.S. production. At a time when this 
country is facing record energy prices, it is critical that we 
continue to develop our alternative energy supplies. Small 
businesses can help achieve this goal but only if they have the 
skilled employees necessary to make that happen. If we truly 
care about the security of our children and of our children's 
children, we need to continue to push the envelope on the bio-
energy economy.
    I am excited to hear from our distinguished panel of 
witnesses, and I look forward to today's discussion.
    Now I yield to my colleague and friend from Tennessee, 
Ranking Member Davis, for his opening statement.

                 OPENING STATEMENT OF MR. DAVIS

    Mr.Davis. Thank you, Mr. Chairman.
    Good morning. Thank you all for being here today with 
special recognition to our witnesses, many of whom have 
traveled great distances to be with us today.
    I would like to especially thank Dr. Kelly Tiller, 
journeying up all the way from east Tennessee. It is great to 
see you, and thank you for being with us today.
    I would also like to thank Chairman Braley for calling this 
timely hearing.
    Renewable energy provides a great opportunity for U.S. 
agriculture and for rural America to be leaders in the new era 
of energy production. Just like most emerging industries, it 
will be a small business that leads the way. All of us 
recognize the strategic imperative for reducing our dependence 
on imported oil. We import nearly two-thirds of the oil that we 
consume. With gas prices at or above the $3 per gallon range, 
it is very important to discuss ways to increase our energy 
output to keep up with the demand.
    We also recognize the immense potential for renewable 
energy in spreading growth, jobs and wealth creation in rural 
America. There can be little doubt that increased demand of 
renewable fuels has a great positive impact on our Nation's 
economy, including small business. Diversifying and improving 
our Nation's energy production and consumption increases 
competition, which we all know drives prices down, spurs 
innovation and creates opportunities for niche industries to 
crop up and to begin to thrive.
    We need to promote the expansion of new plants and aid 
research in improving this new industry's technology. Our 
scientists, farmers and entrepreneurs will continue to lead the 
world in developing and in investing the cutting edge 
technology, infrastructure and farming methods. Advances in 
many fields will play an important role such as the continued 
improvement in crop yields, the optimization of crop material 
and fuel feedstock, the cost reduction and production of 
ethanol and of other alternative fuels.
    With any emerging industry, there will be a period of 
growing pains, including the topic of this hearing--the need 
for additional qualified and trained technicians to build, to 
operate and to maintain these new plants. This phenomenon is 
not new. When an industry grows as quickly as this one has, 
there are going to be problems finding qualified employees. In 
this instance, I am reminded of the famous quote from the movie 
Field of Dreams. "if you build it, they will come." I believe 
that, as the bio-energy industry grows and becomes more 
prevalent, potential workers will recognize that there is an 
inherent value in learning a trade specific to bio-energy 
production. High-paying, secure jobs are their own best 
advertisement. Hardworking Americans will take the positive 
steps necessary to fill these jobs for the future.
    In helping this industry grow and prosper, we must ensure 
that Federal dollars are put to the best use. The artificial 
subsidizing of growth of this or of any specific workforce 
would cause potential problems in the future. With that said, I 
do believe that the Federal Government can and will have an 
important impact on helping these emerging bio-energy firms to 
grow.
    We have asked our expert panels of witnesses to identify 
some of the stumbling blocks to finding, hiring and training 
these new employees. Meetings like this today bring people 
together to discuss the challenges and the opportunities of 
renewable energy that will pave the way for producers and 
consumers in the future. I look forward to hearing their 
testimony and to working with each of you to find solutions 
that best fit the American bio-energy industry.
    Again, I thank Chairman Braley for calling this hearing, 
and I yield back the remainder of my time.
    ChairmanBraley. I thank the ranking member, and I am very, 
very proud to have the Field of Dreams in my district, and any 
time you would like to come visit, we would love to have you.
    Our first witness is no stranger to the bio-energy 
industry. The recent issue of the National Journal had an 
energy special on corn power, and included prominently in this 
issue was our first witness, Senator Harkin, who needs no 
introduction. He was first elected to the United States Senate 
in 1984. Iowans returned him in 2002 for his fourth term in the 
Senate. Previously, he served in the House of Representatives 
for a decade. He is currently chairman of the Senate 
Agriculture, Nutrition and Forestry Committee and the Committee 
that is currently considering the Farm Bill.
    Senator Harkin has been a leader in the biofuels industry 
in Congress, and he has successfully worked to increase the 
country's production of biofuels.
    Welcome to the hearing, Senator.

STATEMENT OF THE HON. TOM HARKIN, A UNITED STATES SENATOR FROM 
                       THE STATE OF IOWA

    SenatorHarkin. Mr. Chairman, thank you very much.
    Congressman Davis, thanks for having me here.
    Above all, thank you for having this hearing, and thank you 
for being on the cutting edge of this legislation to try to get 
the workforce that we are going to need in the future.
    I have to apologize. I just got notice. I thought that our 
vote was going to start at 10:15. They moved it up. It actually 
is called at 10:11. Now, that is a rarity in the Senate. 
Usually, our votes are pushed back. You may be witnessing a 
first here where a vote actually occurred before they scheduled 
it.
    Let me just say that as I was coming over here--let me just 
ask that my statement be made a part of the record.
    When I was coming over here, Congressman, through the 
Rotunda, I looked up. There is that scene that goes around that 
main Rotunda of the Capitol. You see the history of the United 
States depicted up there. The last panel is the flight of the 
Wright Brothers' airplane. Right before that is the Industrial 
Revolution. I submit to you that we are on the cusp of a bio-
energy revolution in this country, a bio-energy/biochemical 
revolution in this country, and it will change things as 
dramatically as the Industrial Revolution changed America at 
that time.
    Now, we have got to be ready for it, just as you said, 
Congressman. I think both of you alluded to the fact that a lot 
of this would be small businesses. We think of the Industrial 
Revolution a lot of times as the big factories and the big 
plants, but really it was in our small machine shops, in our 
small foundries that people experimented and devised the kinds 
of equipment and tools that we needed for our farms and for our 
mechanization in America. It was not the big plants. The big 
plants may have forged the steel and stuff, but it was the 
small plants and the small businesses that really enabled us to 
take advantage of the Industrial Revolution.
    I think the same thing is going to be happening with our 
bio-energy revolution. I mentioned that picture. I also have a 
picture in my office, one of my favorite pictures. It is of 
Henry Ford, the original Henry Ford. It was taken in 1939. It 
is of old Henry Ford. He was fairly old at that time. He passed 
away, I think, in 1946. He had a baseball bat, and he was 
striking the trunk of a 1939 Ford to demonstrate that the 
trunk, made from soybeans, would not dent and would not break. 
That was in 1939. I also have a picture of Henry Ford wearing a 
soybean suit. He predicted at that time that, of the cars of 
the future, much of the composites of the steering wheels, the 
dashboards and things like that would be made from bio-based 
products. But what happened to Henry Ford's dream?
    Well, what happened was World War II. We had to have an 
immense, immediate demand for petrochemicals, for petroleum to 
conduct the war, and then we have been living on that ever 
since. We just sort of have been living off of the generation 
of that ever since. Well, we now know what is happening. We are 
depleting our oil supplies. Plus, the places where we get our 
oil from are very unstable. As you said, Mr. Chairman, this has 
a lot to do with national security and what we are going to do 
about our national security, and you are right. We have to act 
now. We cannot afford to just sort of let this dribble along.
    So, in order to move this--as you mentioned, we put in the 
last Farm Bill the first ever energy title--I have been in 
constant consultation with my counterpart on the House side, 
Chairman Peterson, and Mr. Goodlatte, Senator Chambliss on our 
side. We have been working on a bipartisan basis to kind of 
push the envelope even more on energy production from biomass. 
So cellulose is going to be a big part of the future.
    I saw a map, Congressman Davis, of the United States and 
the estimates. Actually, this was a study done by the 
University of Tennessee, and it showed the United States in 
terms of increases in net farm income in the next 25 years, I 
believe it was. I may be mistaken there. The places where net 
income is going to be the biggest are the States that had the 
best biomass production. Tennessee was one of them, by the way, 
of course with Iowa, where you will see big gains because of 
the demands that are going to be put on us.
    So, as we move ahead in all of these areas, we are going to 
need, Congressman Braley, what you have so appreciably, I 
think, thought about, and that is where is the workforce coming 
from. Who are all of these people going to be?
    Now, if you do not mind, I will brag a little bit about 
Iowa. We are now number one, as you know, in the production of 
ethanol. In fact, we have sort of reached a milestone of energy 
independence of our own in Iowa. If we did not export ethanol 
out of Iowa, we would have enough ethanol in Iowa to replace 
100 percent of our gasoline in the State of Iowa right now. It 
is true.
    Now, we are also building wind generators. Now we are third 
in the Nation in the production of wind energy. California is 
first, Texas and then us, but in per capita, we are number one. 
I always like to point that out. We are number one in wind 
energy production on a per capita basis, and we are building 
even more. We will surpass Texas very soon and probably reach 
California in a short time. These require technicians. They 
require people who know how to repair them. These are huge 
windmills. These are not 1-1/2 megawatts. These are 2-1/2-
megawatt generators. We need the workforce, people trained not 
only in how to make them, to construct them, but in how to 
modify them, in how to maintain them, in how to work on them 
when they break down. So it is going to take a new kind of 
workforce there, then, in the biofuels with the ethanol and 
with cellulose coming on line.
    Now, we are going to move rapidly into cellulose. We cannot 
meet either what President Bush has wanted or what we have in 
our energy bill on the Senate side in terms of renewable fuel 
standards. We will not be able to meet that just by corn alone. 
We are going to have to have cellulose. So that is going to 
generate a whole new kind of basis of input. How do we grow the 
crops? How do we process them? What are the enzymes we are 
going to use? What are the pyrolytic processes that we might 
have to use in conjunction with that? More research money is 
going to--and we are going to do that in our Farm Bill. We are 
going to put more research money into the cellulose conversion, 
but now again, we are going to have to think about the new kind 
of plants that are going to have to be built and how they are 
going to be maintained. Where is that workforce going to come 
from?
    I can tell you, Congressman, like you, I visited a lot of 
our ethanol plants in Iowa, and you would be amazed at how many 
of those plants I have talked to the managers or to some of the 
people working there who graduated from Iowa State and who got 
good degrees in engineering, chemical engineering, maybe, 
mechanical engineering, whatever, who left the State because 
there were no jobs. They are now back in Iowa. They are now 
back because there are good-paying jobs there for them.
    So I can see this as sort of a win-win-win for everyone. It 
is better for the environment with all of the impact of global 
warming that we are seeing. It is good for our national 
security. The more fuels we can get from our fields and trees 
and whatever else it might be, then the less we have to get 
from unstable countries that are not necessarily acting in our 
best interests.
    Third, it is going to provide new jobs, a whole new culture 
of jobs and of job opportunities in our society, but we cannot 
just sit back and say, "Well, fine. When they build them, you 
know, they will come." well, I appreciate the Field of Dreams 
analogy, but I do not just want to let these plants go ahead, 
because we have to do everything we can to push it as rapidly 
as possible. If you build the plants but they cannot get the 
workforce, that is going to slow everything down.
    So I am just here to say thank you for this legislation and 
to add whatever support I can to help move it along, 
Congressman Braley and Congressman Davis. I think you are on to 
something, and there is no better place to do this than at our 
community colleges. There is no better place. They are out 
there where the action is taking place. They have the expertise 
to do it. Oh, I am not saying that our universities and stuff 
cannot do that, too, but it just seems uniquely designed for 
our community college structure to be able to train, educate 
and to maybe even have retraining, skill upgrading as we go 
along because these plants are not going to be static. What we 
start with will not be what they are going to be 10 and 20 
years from now. They are going to change and modify and become 
more efficient. So it is going to require a constant adaptation 
by our workforce to maintain those.
    So I just wanted to be here to again thank you for this and 
to lend whatever support I can and to commend you for holding 
the hearing and introducing the legislation, and I hope we can 
get it through as rapidly as possible as a good adjunct to what 
we are going to be doing in the Farm Bill.
    Thank you very much, Mr. Chairman.

    ChairmanBraley. Thank you for taking time from your busy 
schedule. We appreciate it very much, and I hope you make your 
vote.
    SenatorHarkin. Oh, we will make it. Thank you very much for 
your leadership. It is great legislation, and I hope we can get 
it done.
    Thank you very much, Congressman Davis.
    Mr.Davis. Thank you.
    SenatorHarkin. Thank you, Mr. Chairman.
    ChairmanBraley. Now we will set up for our second panel and 
begin as soon as we are ready.
    It looks like our panel is seated. Let me just go over some 
of the basic ground rules.
    Witnesses will be allowed 5 minutes to deliver their 
prepared statements. All of your written statements will be 
included as part of the official records of the hearing. The 
way that the lights work is, when you have 1 minute remaining, 
the yellow light will come on, and when your time is up, the 
red light will come on, and because we have such a 
distinguished and large panel this morning, we appreciate your 
cooperation in that regard.
    I will be introducing the first four witnesses right before 
they give their opening statements, and then Ranking Member 
Davis will be introducing the last two witnesses before they 
give their opening statements.
    So I would like to begin with John Caupert. John has been 
the Director of the National Corn-to-Ethanol Research Center at 
Southern Illinois University Edwardsville since October 2006. 
Prior to joining NCERC, he was the Area Manager for the North 
American Business Unit of Romer Labs, Inc. NCERC facilitates 
the commercialization of new technologies for producing fuel 
ethanol more effectively.
    Welcome, Mr. Caupert.

 STATEMENT OF JOHN CAUPERT, DIRECTOR, NATIONAL CORN-TO-ETHANOL 
                        RESEARCH CENTER

    Mr.Caupert. Thank you, Chairman Braley.
    Good morning, Chairman Braley, Ranking Member Davis and 
members of the Subcommittee.
    My name is John Caupert, and I am the Director of the 
National Corn-to-Ethanol Research Center located in University 
Park of Southern Illinois University Edwardsville. I was just 
thinking what an honor to be following Senator Harkin, but at 
the same time it is a challenge to follow distinguished Senator 
Harkin.
    This hearing is crucial to assure that a qualified and 
trained workforce is ready and able to fill the thousands of 
jobs being created by the biofuels industry. In order to supply 
this workforce, a comprehensive education and workforce 
training program must be developed. With more than 110 ethanol 
plants in operation and another 80 plants under construction, 
the need for qualified applicants is urgent. The need for 
qualified employees is now.
    Our refineries are being built from the East Coast to the 
West Coast, from the Canadian border to the border with Mexico. 
With rapid industry growth, it is becoming increasingly 
difficult to locate employees with the proper training and 
educational background required to work in these technical fuel 
refineries.
    Chairman Braley said the majority of biofuel producers, 
greater than 75 percent, are individual plants with fewer than 
50 employees. On average, these plants do not have the 
infrastructure which is necessary to support thorough in-house 
training programs. Designers of fuel ethanol plants offer 
condensed training programs for the staff of a newly 
constructed facility.
    Generally speaking, these programs do not extend beyond 
start-up guarantees. A comprehensive workforce training program 
is necessary to increase efficiency and productivity, to 
develop a technical workforce, to improve workplace safety, to 
increase environmental awareness, to minimize natural resource 
usage, and to reduce our dependence on foreign oil.
    For the reasons stated above, the National Corn-to-Ethanol 
Research Center developed a workforce education and development 
training program. The template of our program is a 5-day, 50-
hour comprehensive overview of the ethanol production process. 
In addition, we offer a 1-year internship program with a second 
year option. These programs, titled Fundamentals of Applied 
Ethanol Process Operations, assist in filling a void that 
exists in today's biofuels industry, the void of qualified 
applicants. Our programs ensure that the employees of the 
biofuels industry will not only be technology analysts, but 
more importantly, they will be analyzers of technology. These 
programs are unique in that the National Corn-to-Ethanol 
Research Center is the only facility in the world where a 
person will receive classroom instruction on biofuels, computer 
simulation of the biofuels production process and hands-on 
applied learning at a pilot-scaled dry-grind and wet-mill 
ethanol plant, all of which takes place under one roof.
    The National Corn-to-Ethanol Research Center supports the 
NEW ERA as it recognizes the opportunity at hand, the 
opportunity being collaborative efforts between community 
colleges, 4-year institutions and the National Corn-to-Ethanol 
Research Center. By working together, we will address the need 
for qualified applicants in the biofuels industry. Qualified 
employees of the biofuels industry will help to create energy 
independence for the United States of America. The National 
Corn-to-Ethanol Research Center looks forward to working with 
the 110th Congress and this Subcommittee.
    Thank you.
    [The statement of Mr. Caupert may be found in the Appendix 
on page 38.]

    ChairmanBraley. Thank you.
    Our second witness is Ron Litterer. Ron is the first Vice 
President of the National Corn Growers Association, and he has 
held various leadership positions, including Chairman of the 
Disaster Task Force, Chairman of the NCGA Public Policy Action 
Team, and President of the Iowa Corn Growers Association. As a 
representative of NCGA, Mr. Litterer has advocated the 
development of biotechnology, emphasizing the importance of 
responsible, accountable management by biotechnology providers, 
producers, suppliers, and grain merchandisers. The NCGA is a 
producer-directed trade association, headquartered in St. 
Louis, that represents the interests of more than 30,000 
farmers.
    Welcome.

STATEMENT OF RON LITTERER, FIRST VICE PRESIDENT, NATIONAL CORN 
                      GROWERS ASSOCIATION

    Mr.Litterer. Mr. Chairman and Ranking Member Davis, on 
behalf of the National Corn Growers Association, I appreciate 
the opportunity this morning to discuss the renewable fuels 
industry and the growing need for a trained workforce in the 
field of bio-energy.
    I am a corn farmer from Greene, Iowa. I am the first Vice 
President of the National Corn Growers, and we represent, as 
Congressman Braley said, over 32,000 members from 48 States. 
NCGA also represents more than 300,000 farmers who contribute 
to corn check-off programs and 27 affiliated State 
organizations across our country, working together to create 
new opportunities in markets for corn growers.
    The National Corn Growers Association applauds your 
efforts, Mr. Chairman, and this committee's for recognizing and 
addressing the critical need for a strong, trained workforce 
for the bio-energy industry. Today, there are 121 ethanol 
plants on line with 75 plants under construction with each 
plant creating around 40 new jobs in rural America. In my home 
State of Iowa, there are 28 ethanol plants with more than 1.7 
billion gallons of annual capacity. These plants have created 
more than 27,000 jobs across Iowa, stimulating the local 
economies and invigorating rural development across the State.
    As you may know, the ethanol industry has been one of the 
most significant success stories in American manufacturing over 
the past quarter century. From a cottage industry that produced 
175 million gallons of ethanol in 1980, the American ethanol 
industry has grown to include 121 manufacturing facilities with 
an annual capacity of nearly 6.2 billion gallons.
    Today, renewable fuels have become a critical part of the 
U.S. energy policy. As a consequence of continued high 
petroleum prices, regional instabilities and America's 
commitment to reduce our dependence on foreign oil, ethanol and 
other renewable energies are now a critical component in our 
efforts to build a strong domestic energy supply.
    These developments in the biofuels industry have spurred 
new value-added agriculture businesses, employment 
opportunities and ethanol plant investments throughout our 
country. In the Midwest, corn ethanol has made a significant 
contribution to rural communities and has created thousands of 
jobs in much needed areas. As corn ethanol continues to grow 
and cellulosic ethanol begins to develop, we must have a 
dedicated and trained workforce to operate these facilities in 
all regions of the United States.
    According to a study by John Urbanchuk on the economic 
contributions of the ethanol industry, in 2006 alone the U.S. 
saw the creation of 163,000 jobs in all sectors of the economy 
due to the increase in gross outputs resulting from the ongoing 
production and construction of new ethanol capacity. These 
include more than 20,000 jobs in America's manufacturing 
sector, American jobs making ethanol from grain produced by 
American farmers.
    Again, a key component of the success of the U.S. ethanol 
industry over the next decade will be to ensure the industry 
has a ready and available workforce. Community colleges, land-
grant universities and technology education centers are well 
positioned to train and to educate a robust and productive 
workforce. These institutions will play a unique role in 
serving both the educational needs as well as meeting the 
growing needs of the booming bio-energy sector by making 
available a dedicated grant program to these institutions.
    The critical hands-on training required to operate these 
facilities will be available to all persons interested in 
pursuing a career in bio-energy, and it will provide countless 
new opportunities for American workers. The collaborative 
efforts of the industry, of the educational institutions, along 
with government investment will grow the bio-energy field and 
create good jobs and clean energy.
    The National Corn Growers Association believes legislation 
like the National Endowment For Workforce Education and 
Renewables and Agriculture Act, the NEW ERA Act, will help to 
expand our Nation's capacity to identify and to track new jobs 
and skills associated with a growing renewable energy sector as 
well as to develop and to support national and State skill 
training programs that will demonstrate best practices in 
addressing skill shortages that have already begun to affect 
the expansion of renewable energy.
    Already, the renewable and energy efficiency industries are 
feeling the pinch of labor shortages. A 2006 study from the 
National Renewable Energy Lab identified the shortage of skills 
and of training as a leading nontechnical barrier to renewable 
energy and to energy growth.
    The National Corn Growers believes strongly in the 
continued commitment to build a strong domestic renewable 
energy workforce. Ethanol and other bio-energy technologies 
will play a significant role in reducing our dependence on 
foreign oil, in building up hundreds of rural economies, and in 
creating thousands of new job opportunities across the country.
    The renewable fuels industry has proven to be one of the 
greatest success stories in rural America in this country, 
bringing with it opportunity and prosperity for the American 
farmer.
    Thank you.
    [The statement of Mr. Litterer may be found in the Appendix 
on page 52.]

    ChairmanBraley. Thank you.
    Our third witness is Bruce Rastetter, who is the Chief 
Executive Officer of Hawkeye Renewables and who serves on the 
board of directors of the Renewable Fuels Association. Prior to 
joining Hawkeye Renewables, Mr. Rastetter was founder and CEO 
of Heartland Pork. Hawkeye Renewables operates two ethanol 
plants in Iowa, with a combined capacity for producing 215 
million gallons of ethanol annually. On my last trip back to 
the district, I had the pleasure of getting a tour of one of 
the facilities in Hawkeye, Iowa from Mr. Rastetter.
    Welcome.

     STATEMENT OF BRUCE RASTETTER, CEO, HAWKEYE RENEWABLES

    Mr.Rastetter. Well, good morning, Mr. Chairman and 
Congressman Davis. I really appreciate the opportunity to be 
here today. Certainly, in growing up on a small farm in rural 
Iowa and being encouraged to get a good education and being 
able then to come back to agriculture and to see a dynamic 
industry that continues to grow and that offers both great 
opportunity and hope for our country in terms of energy and 
increased food production and all of the benefits that are 
going to come with it, I certainly appreciate the opportunity 
to visit with you today about your initiative on education.
    As founder and CEO of Hawkeye, as you mentioned, today we 
currently have two plants, one in Iowa Falls and one in 
Fairbank. We are engaged in building two more 100 million-
gallon plants in Iowa. Each of those plants employs about 45 
people. As an operator, I can absolutely tell you that there is 
no lack of demand or interest in renewable energy in terms of 
jobs and people's interest in this.
    As an example, when our Fairbank plant was set to open, we 
received over 800 applications for the 45 jobs. However, I can 
also tell you that it was easy to sift through those 
prospective hires based on the degree of education, training or 
experience that the applicants had. In fact, of the 45 people 
per plant, on an average, only seven to 10 had any degree of 
experience in biofuels. For the remaining employees, Hawkeye, 
like many other ethanol producers, has implemented wide-
ranging, comprehensive training programs for each plant. At 
Hawkeye, we partnered with our technology provider to implement 
that training and education as part of bringing those employees 
on and teaching them some basic skills of biofuels.
    Moving forward, this is an exciting industry to be involved 
with, and frankly, in being located in America's heartland, 
there is a great degree of hope and excitement about the 
quality of jobs being offered as well as the overall effect of 
contributing to our national economy and energy security.
    As with any growing industry, the biofuels industry faces a 
number of issues related to its continued and sustained growth. 
One of the most important challenges is the access to a quality 
workforce that is educated and trained to work in the biofuels 
space.
    That is why I am pleased to be with you today, Congressman 
Braley, to discuss your initiative on training and to help 
bolster the education process at community colleges in Iowa and 
across the country.
    Across the country, biofuel plants have sought to build 
collaborative relationships with educational institutions at 
all levels, be it in research and development with research 
universities or in training and education with community 
colleges like we are discussing today. The relationships 
between these that are active and operational in the industry 
with those in the educational community will provide long-
lasting, positive effects on our communities.
    It is also noteworthy, I think, to remember that this 
industry is still relatively new and is undergoing massive 
growth. Because of that, there is an incredible amount of work 
to be done in research and development with biofuels, but also 
that research and development will no doubt lead to more and 
better jobs as well. This industry will continue to grow 
through the use and development of additional technologies, and 
that will require additional education and training to ensure 
there is a prepared workforce for these jobs that will come on 
line.
    A friend of mine reminded me of what happened in the oil 
industry years ago in Texas, in that part of our country. 
Because of the new discoveries, the new jobs and the new 
technologies that continued to develop, many educational 
institutions invested in training and education for jobs and 
research related to that industry. While the country has to 
continue to look for oil elsewhere today, people from around 
the world come to learn from the very best about the oil 
production and discovery space here in America.
    The center of intellect and potential for renewable and 
alternative energy should be in America, and I would further 
argue that it makes sense for that to be located in the 
Midwest, and with the encouraging pieces of legislation like 
this bill, we can continue to move toward real potential as a 
reality of part of this industry.
    Hawkeye has a great relationship with our local community 
college, Ellsworth Community College, in Iowa Falls. Today, 
with me is Mollie Teckenberg, the provost of Ellsworth. One of 
the initiatives community colleges are taking around this 
country is to look forward and to pass bond issues. Ellsworth 
did one last fall to fund a renewable center. Your bill is very 
timely in terms of additional funding towards training and 
education and outreach to high schools and to other parts of 
the community to bring those people to have interest in 
continuing to move forward with renewable energy and to 
matching programs the communities are investing in rural 
America today and going forward.
    Thank you for your time.
    [The statement of Mr. Rastetter may be found in the 
Appendix on page 56.]

    ChairmanBraley. Thank you.
    Our fourth witness is Dr. Patricia Keir, who is the first 
Chancellor of the Eastern Iowa Community College District. 
Prior to her arrival in Iowa, Dr. Keir spent 5 years as 
President of San Diego Miramar College. She was also the 
Executive Vice President/Provost at Lansing Community College 
in Michigan. As Chancellor, Dr. Keir oversees the Eastern Iowa 
Business and Industry Center, which offers a number of services 
and programs to aid local business development.
    Welcome.

   STATEMENT OF DR. PATRICIA KEIR, CHANCELLOR, EASTERN IOWA 
               COMMUNITY COLLEGE DISTRICT OFFICE

    Ms.Keir. Thank you. Thank you very much, Chairman Braley 
and Ranking Member Davis.
    I am the Chancellor of Eastern Iowa Community College 
District, a district which includes Clinton, Muscatine and 
Scott Community Colleges and incorporates small urban, suburban 
and primarily rural communities. Since all three of our 
colleges sit on the Mississippi River, our district also 
participates in a number of bistate economic and workforce 
development initiatives with Illinois, particularly in the Quad 
City.
    I would like to address the role the Nation's community 
colleges can play in preparing the workforce for this emerging 
and exciting biofuels and ag-based products small business 
sector and how our participation could best be led and 
structured. How are we going to efficiently and effectively 
prepare our workforce to meet the needs that everyone is 
talking about?
    I confidently recommend a leadership role for community 
colleges. There are more than 1,200 community colleges 
distributed across the United States. Community colleges are 
often the only educational institutions and, thus, the primary 
source of workforce training for many rural areas. No other 
segment of higher education is more responsive to its local 
community and workforce needs. Given the explosion of interest 
in bio-energy, particularly in the Midwest, we need to rapidly 
develop and deploy education and training programs to meet the 
emerging needs of the many related small businesses popping up 
everywhere.
    In general, the types of jobs key to supporting projected 
growth in ethanol could be divided into thirds: Individuals 
needing short-term training; individuals needing associate 
degrees, technicians, and graduates with 4-year and advanced 
degrees. Community colleges are the starting point for all of 
these levels of training with their noncredit and short-term 
program options, their 2-year associate degree programs, and 
their mission to prepare students to transfer successfully into 
4-year colleges and universities.
    Building awareness of the small business workforce 
opportunities in this new field is also essential. Clearly, the 
U.S. needs to gear up to create and prime the pipeline with up 
and coming agricultural-based technicians, scientists and 
engineers, but today's young people and reentry adults are 
entering a buyer's market. There is no shortage of industries 
and types of business vying for their attention and their 
career choice. We must make career awareness of the bio-energy 
field a priority in our Nation's middle schools, particularly 
in rural areas, since middle school years are the best times to 
influence students and parents regarding career choice and how 
to prepare for that career.
    Again, because community colleges and particularly 
community colleges in rural areas are so tightly connected to 
their local K-12 systems and have articulated a seamless 
transition for many students in high school into college level 
coursework, we are well positioned to fill the pipeline with 
short-term certificate training to upgrade the current 
workforce for these jobs. There is no doubt, certainly in Iowa, 
that individual community colleges have already eagerly stepped 
up to individually develop bio-energy programs to meet local 
needs.
    However, I would like to make the point that a more 
systematic, collaborative approach would streamline the 
process, reducing duplication or an excess of training 
programs, making sure everyone has access to the most up-to-
date, thorough curriculum and acting in concert to be sure that 
we do not create an oversupply of technicians in some parts of 
Iowa and an insufficient number in others.
    There is a model for optimum preparation of coordination 
and responsiveness. Through its Advanced Technology Education 
program, the National Science Foundation has created a system 
through the Nation's community colleges to educate technicians 
for all of the high technology fields critical to our Nation. 
The ATE program fosters partnerships between academic 
institutions and employers to promote improvement in the 
education of science and engineering technicians at the 
undergraduate and secondary school levels.
    At the Eastern Iowa Community College District, for 
example, we host the National Science Foundation Center of 
Excellence in the area of energy and the environment. Our ATE 
Center serves as a resource and clearinghouse for curricula and 
training material, the professional development of faculty and 
program improvement strategies, and then the results of our 
work are shared with other community colleges throughout the 
Nation and, through them, into their K-12 and business 
partners. Reinventing the wheel is minimized, and a community 
college seeking to meet local training needs can quickly turn 
to us as a resource to implement needed programs in their local 
areas.
    To me, America's rural landscape is a very exciting place. 
Our farms are emerging as primary sources of materials to 
address our Nation's energy and sustainability challenges. 
Research is showing us more and more interesting uses of 
biomass. Small businesses are popping up everywhere in response 
to this ongoing transformation. However, given the intellectual 
challenges of this new field and the, quote, "depopulation" of 
many of our rural areas, we must commit to choosing a 
systematic, efficient and forward-thinking system of bringing 
workers into the field and training them to meet its demands at 
every level. I believe that our agricultural sector, long known 
for feeding the Nation, will assume the role of fueling the 
Nation. Small business will play a key role in making this 
transformation a reality, located throughout the Nation, 
accessible to all, closely tied to K-12 and to our 
universities. Known to be responsive to local business and to 
move quickly, community colleges should be regarded as a leader 
in the meeting of workforce demands of small bio-energy 
businesses.
    Thank you very much for giving me this opportunity to share 
my thinking with you and my enthusiasm for the Nation's 
community college system.
    [The statement of Ms. Keir may be found in the Appendix on 
page 62.]

    ChairmanBraley. Thank you.
    At this time, I would yield to Ranking Member Davis to 
introduce the remaining witnesses on the panel.
    Mr.Davis. Thank you, Mr. Chairman.
    Dr. Kelly Tiller is a Research Assistant Professor at the 
University of Tennessee Agricultural Policy Analysis Center. 
Dr. Tiller has extensively researched the potential of new 
agricultural products and the expanded uses in bio-energy to 
provide income opportunities for the traditional agriculture 
sector in rural communities.
    Dr. Tiller.

    STATEMENT OF DR. KELLY J. TILLER, ASSISTANT PROFESSOR, 
    AGRICULTURAL POLICY ANALYSIS CENTER, THE UNIVERSITY OF 
                           TENNESSEE

    Ms.Tiller. Chairman Braley and Ranking Member Davis and 
members of the Committee, thank you very much for the 
opportunity to be here today.
    The biotechnology, biofuels and bio-energy industries have 
experienced unprecedented growth over the last few years, but I 
think most industry watchers suggest that the growth we could 
see over the next few years could make the past growth look 
like the flat part of an exponential growth curve yet to come, 
and much of this biofuels growth over the mid to long term is 
expected to be through the commercial scale development of 
cellulosic biofuels industries where cellulosic biomass 
materials from a wide variety of locally appropriate sources 
contribute feedstock for a range of technically appropriate 
biorefinery processes.
    As Senator Harkin mentioned, a group of my colleagues at 
the University of Tennessee have recently conducted a study for 
the 25x25 Work Group and have provided projections of economic 
and ag sector impacts associated with a scenario where U.S. 
farms, ranches and forests would provide 25 percent of total 
U.S. energy needs along with the continued production of safe, 
affordable and abundant food supplies.
    The study estimates that by 2025 we will be producing 86 
billion gallons of ethanol and 1.2 billion gallons of biodiesel 
from America's fields, farms and forests, including the net 
addition of over 100 million acres of switchgrass. In total, 
the economic gains in the renewable energy in ag sectors plus 
interstate commerce top more than $700 billion by 2025 and 
support the creation of more than 5 million new jobs.
    Achieving these levels of biofuels and particularly 
cellulosic biofuels would truly be transformational. Additional 
policies and goals supporting further expansion of this 
industry are also in place and under discussion right now. 
Taking some fairly conservative estimates of the growth in this 
sector, there could be required between 720 and 1,720 
operational biofuels plants spread across the U.S. in less than 
20 years. By any standard or goal, with the significant 
advances in cellulosic skill and commercial skill, cellulosic 
biofuels manufacturing is required with no time to spare. As we 
progress toward these manufacturing expansions in cellulosic 
biofuels, there are four considerations that I think we should 
bear in mind.
    First, it is important to recognize that regional 
approaches to cellulosic biofuels will need to be developed. We 
need careful assessments of regional feedstock opportunities 
and comparative advantages to tailor appropriate technologies 
and approaches for which a region has a comparative advantage.
    Second, we need to remember that the cellulosic biofuels 
manufacturing is an emerging industry with a very infant 
workforce available today. Some workers have skills in other 
fields that will transfer well to this industry, but we still 
have tremendous needs as have been discussed.
    Third, progressive research programs are imperative. As of 
today, we do not have a track record of commercially proven 
technology in a business model for cellulosic biofuels in the 
U.S. We certainly expect that to change very quickly, but it 
emphasizes the need for significant investments in research and 
in demonstration, and it is important also that these 
technologies and processes that are developed in the U.S. be 
retained through intellectual property that remains in the U.S.
    Fourth, local ownership provides additional developmental 
benefits. To the extent that farmers and other stakeholders in 
local communities can be actively invested and involved in the 
cellulosic biofuels industry development, they can retain those 
economic returns in local communities, promoting further 
investments and improvements in education health care, social 
services, as well as economic development.
    It is important, too, to remember, though, that farms are 
small businesses as well. Dedicated energy crops produced today 
are largely research and demonstration in nature. Achieving 
significant long-term growth in the bio-energy will require 
widespread development of entirely new crop systems and models 
and significant educational efforts to spread the knowledge and 
improve production processes.
    With regard to the ag sector, I think it is important to 
recognize that significant research efforts are required to 
develop these new crops and processes. We are essentially 
starting from scratch. Significant research is needed in the 
areas of crop breeding, crop genetics, agronomic practices, 
crop management systems, harvesting methods, production and 
harvesting equipment, preprocessing, transportation, storage, 
risk management, and contracting, to name a few.
    Second, it is important to note that sustainable systems 
are imperative.
    Third, the energy crop solutions as well are very region-
specific and must be adapted to local conditions and to local 
communities and resources and infrastructure.
    How do we support the development of this cellulosic 
biofuels industry? I believe land-grant colleges and 
universities have a very important role to play in the 
development. The three primary functions on which they are 
built--research, education and extension--are all critical to 
successfully achieving the bioeconomy vision, and integrating 
these functions is necessary for developing a viable and a 
sustainable bioeconomy. The ag extension service certainly has 
a long and successful track record and can contribute 
significantly. Investments in research to support this emerging 
industry are also critical to its success. Training the next 
generation of biofuels researchers and workers requires 
tailored graduate and undergraduate curricula that largely 
still need to be developed and implemented.
    Thank you again for the opportunity to appear before you 
today. Certainly, bioeconomy growth is on a fast track, but it 
will not happen overnight. We have the opportunity now to make 
investments in developing and in growing a skilled and 
sufficient workforce and ag sector for the bioeconomy in a 
manner that is sustainable and that maximizes benefits 
especially for our rural communities.
    Thank you.
    [The statement of Ms. Tiller may be found in the Appendix 
on page 72.]

    Mr.Davis. Thank you for your testimony.
    I would like now to recognize Dr. Colin South. He is 
President of Mascoma Corporation, which focuses on the 
development of technologies for the production of ethanol from 
cellulosic biomass. Dr. South has over 10 years of bioprocess 
design, construction and operational experience in the biotech 
industry, acquired while he was with BioMetics Consulting. He 
was the former CEO of ViaLactia Biosciences, a gene discovery 
and commercialization company, and was Fonterra Cooperative 
Group's General Manager of Health and Nutrition in Auckland, 
New Zealand.
    Dr. South.

STATEMENT OF DR. COLIN R. SOUTH, PRESIDENT, MASCOMA CORPORATION

    Mr.South. Thank you.
    Mr. Chairman and Ranking Member Davis, I am pleased to be 
here today to testify on behalf of Mascoma Corporation on this 
important issue, meeting the workforce needs of small bio-
energy businesses. The Mascoma Corporation is a cellulosic 
biomass-to-energy company with offices in Cambridge, 
Massachusetts and research and development offices in Lebanon, 
New Hampshire.
    Mascoma is focused on commercializing cellulosic ethanol 
technologies that will work in every region of the country. 
Fueling locally rather than trucking fuel across the country or 
the globe is an important component of what we see as our 
Nation's energy future strategy. Mascoma is developing advanced 
cellulosic ethanol technologies in its labs, partnering with 
many academic institutions to further research in the 
conversion of biomass, and is also developing demonstration- 
and commercialization-scale production facilities in several 
locations, including facilities in New York and in Tennessee.
    As Mascoma looks to site cellulosic ethanol facilities, 
strong partnerships with local academic institutions play a 
critical role. This, in part, comes from our beginnings at 
Dartmouth College in Hanover, New Hampshire, but it is also 
born out of necessity. Unlike other bio-energy businesses such 
as corn ethanol, the academic needs for cellulosic ethanol go 
beyond training workers to work at an ethanol biorefinery. We 
need individuals who can help us solve the remaining hurdles to 
decreasing the cost of the production of cellulosic ethanol, 
and our academic institutions are poised to help us do so.
    Specifically, cellulosic ethanol facilities have several 
additional needs that require the focus of our postsecondary 
educational system. These include expertise in feedstock 
cultivation and regional agronomics with an energy crop focus, 
feedstock aggregation and handling, and unique processing 
operations of cellulosic ethanol facilities. This last part is 
especially important because of the variety of feedstocks that 
cellulosic ethanol needs to accommodate. Even within a single 
plant, this will require a much more sophisticated workforce.
    Mascoma continues to find talent from Dartmouth and from 
others for our own labs in Lebanon, New Hampshire. There we are 
focused on the development of commercial-scale cellulosic 
ethanol production, including consolidated bioprocessing, 
fermentation development and process support. Also, in 
Tennessee, Mascoma is working closely with the University of 
Tennessee and Oak Ridge National Laboratory on the development 
of a cellulosic biomass-to-ethanol production facility in 
eastern Tennessee. Initial research conducted by the University 
of Tennessee's Institute of Agriculture indicates that 
Tennessee alone is capable of generating over 1 billion gallons 
of cellulosic ethanol annually from switchgrass alone. The 
University of Tennessee is committing research funding and 
lending valuable expertise to this project, and among other 
benefits, this project will further the economic development of 
the State of Tennessee, create investment opportunities for 
rural farmers and attract future research dollars to the State.
    In New York, Mascoma is working with the State of New York 
to design and build a demonstration-scale cellulosic ethanol 
plant, capable of piloting new technologies and processes 
across multiple feedstocks. In addition to the State 
government, we are partnering with Cornell University to focus 
on the development of feedstock supply options and aligning 
efforts of academic institutions with regional development 
initiatives.
    Policymakers have set very aggressive, yet achievable, 
goals for the growth of the cellulosic ethanol industry. This 
ambitious ramp-up in cellulosic ethanol production will require 
an equally rapid buildup in funding for our Nation's schools. 
This country's schools of higher education need an infusion of 
funding to continue the important research and development of 
cellulosic technologies.
    For example, in 2003, Congress enacted and the President 
signed into law the Sun Grant Research Initiative, designed to 
enhance the efficiency of bio-energy and biomass research and 
development programs through improved coordination and 
collaboration with the Department of Agriculture, the 
Department of Energy and the land-grant colleges and 
universities. The University of Tennessee was named as one of 
the five regional centers to foster that critical research. 
Congress should do more for this initiative and for research 
funding in general as it debates the Farm Bill this year.
    Beyond providing valuable research, our Nation's academic 
institutions will also be asked to train the next generation of 
bio-energy workers. At least initially, cellulosic ethanol is 
intrinsically more labor-intensive than corn-based ethanol and 
will likely require twice as many full-time workers than corn-
based facilities. Schools across the country will be asked to 
train these workers. To this end, the Federal Government should 
also focus additional resources on helping schools build 
programs and curriculum to do so.
    Mr. Chairman, we applaud your interest in this area and 
appreciate the focus that you have brought to this issue with 
your legislation authorizing the Secretary of Agriculture to 
make competitive grants to community colleges to support the 
education and training of technicians in the fields of bio-
energy. We think the Federal Government must do more, and I 
hope that this type of program can be included in the Farm Bill 
on a national basis.
    In conclusion, we at Mascoma are excited about the future 
of the cellulosic ethanol industry, and we appreciate this 
subcommittee's efforts to help us solve our Nation's energy 
security needs while creating new opportunities in rural 
America.
    Thank you.
    [The statement of Mr. South may be found in the Appendix on 
page 77.]

    ChairmanBraley. Thank you for that opening statement.
    Members will have 5 minutes each for the questioning of 
witnesses. We may do more than one round of questions, 
depending upon what else is happening on the floor today.
    Let me begin by asking Mr. Rastetter, who operates a 
renewable fuels facility in my district, if you can help us 
understand a little bit more about some of the basic demands of 
the workforce in operating a plant that is engaged in producing 
renewable fuels. One of the things that struck me when I 
visited your facility in Fairbank was that it was being run in 
a control room which had a virtual production facility that was 
visible on computer screens in the control room, and I think, 
as we start talking about the employment demands of this 
exciting new industry, it would be helpful if you could tell us 
a little bit about some of the basic components of your 
workforce and what you see as some of the employment needs as 
we move forward from here.
    Mr.Rastetter. I appreciate that, Congressman Braley.
    As you walk through the plants, the first impression is 
that the technology advancements have been so significant that 
they essentially run on their own when you look at the screen, 
which has really led to part of the whole energy positiveness 
of the industry and the fast-forwarding of that, but as you 
dive into the quality of the workforce needed to both run those 
facilities, the computers, to interpret what they are telling 
them, you need to be able to graph and maximize whether it be 
in fermentation or in quality control in taking the water off 
so that there are not issues when it gets to the supplier, in 
the lab in testing the distiller's grain so that we are sending 
high-quality distiller's grain back to livestock feed, and 
understanding the protein and the nutritional value of that.
    Beyond that, clearly, with all of the technology, there 
continues to be more of an art than a science in terms of 
employees' knowledge base of the basic biosciences of the 
quality control of the incoming corn, of the product that is 
presently being put out and then, beyond that, what new 
technology is on the forefront.
    We may just employ 45 people at that plant, but clearly it 
is all of the auxiliary services and enzyme companies and 
technology providers that come and offer new technologies that 
we have to then either have engineers who do not have the 
background to always interpret or they need to go to the 
industry and develop.
    Beyond that, one of the things I had mentioned is, with 
these complexes that you saw in Iowa, ultimately they will 
become biotech complexes. Today, we produce two products--
ethanol and distiller's grain. We will use fractionalization on 
corn. We will be using biomass. We will be having cellulosic 
ethanol. We will be spinning the oil off. So all of those new 
technologies are going to require a workforce to deal with and 
to focus on that.
    ChairmanBraley. Thank you.
    Mr. Litterer, my question for you is you have a lot of 
members of your association who have a very thorough 
understanding of one of the principal food stocks that is being 
used to manufacture ethanol in this country, corn, but when I 
went back to my 30-year class reunion last year, I pulled out 
my high school yearbook and looked at the photograph of the FFA 
members with whom I went to high school, and when I went to my 
class reunion I asked that group of individuals how many of 
them were actively engaged in farming. Can you guess how many 
of them out of the 10 from my class were?
    Mr.Litterer. One?
    ChairmanBraley. One. What that tells me is that there are a 
lot of people who I grew up with who have moved on to other 
components of the agribusiness segment of our economy because 
of their love for the land but who are not able to earn a 
living from farming for a lot of different reasons.
    As you look forward to this new bio-energy explosion and 
think about the members and the children of the members of your 
association, what are you seeing in terms of the types of 
workforce choices that some of the people are making who grew 
up as children of members of your association?
    Mr.Litterer. Well, as you alluded to, it is quite obvious 
that the opportunities in agriculture are changing. Technology 
allows farmers to farm a lot more acres than they have in the 
past, and that probably is going to continue to happen, so we 
have to have other opportunities for our children and offspring 
if they want to stay in the State of Iowa and in the rural 
areas and stay in the rural communities. We think the bio-
energy field is going to help us achieve that. So it is a good 
thing for our families and for our rural communities.
    Beyond that, I think the thing that we see as a vision of 
the National Corn Growers is that starch-based ethanol probably 
will produce about 15 billion gallons of ethanol by the year 
2015, and a lot of that expansion is front-loaded, and the 
uncertainty is probably on the cellulosic portion and how fast 
that can be economically viable, and the cellulosic portion has 
a lot more job opportunities in addition to what is coming from 
starch-based corn.
    So, to sum up, I would say that the opportunities in rural 
America are really enhanced by what is going on with the bio-
energy expansion, and it is good for rural communities, and it 
is good for our rural workforce.
    ChairmanBraley. Thank you.
    Dr. Keir, one of the things that we know is that community 
colleges across the country are playing an increasing role in 
preparing students for a whole host of different occupations.
    What is it about this bio-energy segment of the economy 
that is attractive to community colleges as we move forward in 
pursuing a new energy policy?
    Ms.Keir. That is a very good point because I think 
sometimes, when we are looking at workforce preparation in Iowa 
and then across the country, we have a very siloesque approach 
to it, so we have a lot of advance manufacturing in Iowa, and 
so we are trying to prepare workers for them. We are trying to 
prepare workers for all of the various industries, all 
competing for diminishing high school classes. This particular 
field, though, I think will be extremely appealing to young 
people, and we have seen in community colleges how hesitant a 
lot of students are to really plunge into science and math and 
engineering and the tougher subjects, but this, at the end, has 
that motivational aspect of something new and exciting, and it 
is good for America, and so I think our biggest challenge here 
with such low unemployment, at least in Iowa, is to really 
clarify what is involved in this industry and why it is 
exciting and get down into the middle schools and start filling 
the pipeline.
    When I heard someone say that we needed to fill the 
workforce in 6 months, that is kind of frightening because even 
community colleges, which can turn on a dime, cannot go from 
nothing to a fully trained technician in 6 months. There is a 
curriculum development and things that have to be done with the 
business, but I think this is going to attract a lot of 
students if we promote it correctly, and I think we can more 
than meet the need.
    ChairmanBraley. Thank you.
    Mr. Caupert, one of the comments you made that really 
struck me was when you were talking about the role of your 
program you were talking about the void of qualified 
applicants; and as I was listening to Mr. Rastetter's opening 
statement it sounds to me like the key emphasis of that phrase 
was "qualified." because it appears that there is no lack of 
applicants in rural America for the job opportunities that are 
being created by the biofuels industry, but the real critical 
component of that is creating opportunities for qualified and 
skilled workers to fill the need.
    Your program has been on the cutting edge of identifying a 
need, trying to provide training and educational opportunities. 
Can you talk a little bit about how this idea formed and how 
you went through the difficult process of identifying what type 
of skills and programs would be necessary to provide skilled 
workers in this sector of the economy?
    Mr.Caupert. Absolutely. Great question, Mr. Chairman.
    Our phone rings off the hook every day from folks just like 
Mr. Rastetter saying, do you know somebody out there that is 
qualified? We have a phrase at the National Corn-to-Ethanol 
Research Center that this biofuels industry-- "There is a need 
from GEDs to Ph.D.s." The need is out there. What is lacking is 
the qualified person.
    We can bring somebody to the National Corn-to-Ethanol 
Research Center, and within 48 hours we can make that person an 
analytical technologist. We can put them in our pilot plant, 
and they can start pulling samples of ethanol off of a 
distillation column and inject it on HPLC, and they can get a 
number, they can record a number. That is an analytical 
technologist.
    The need is for those folks who can actually analyze the 
analytical technology, and that is what our program is doing.
    In addition to recording a number, they are analyzing that 
data. What does 14 percent alcohol versus 18 percent alcohol, 
what does that mean? To Mr. Rastetter's ethanol plant, that 
means 4 percent more ethanol yield per year, which is millions 
of dollars in production. That is the difference.
    How did we start this collaboration? Simple. We worked with 
a number of community colleges and 4-year institutions to apply 
for an NSF grant. We didn't get it, but we weren't 
disappointed. Because what grew out of it was a collaborative 
effort in which young folks are coming out of community 
colleges, 4-year schools, trade schools, vocational tech 
programs, coming to our facility and going through these 
intense programs. We can't keep people in-house long enough 
before enzyme manufactures, yeast companies, and ethanol 
producers hire these folks away.
    ChairmanBraley. I have some very important questions for 
our other two panelists, but I would like to give Ranking 
Member Davis the first opportunity in asking you questions. I 
yield the time at this time.
    Mr.Davis. Thank you, Mr. Chairman.
    Dr. Tiller, you mentioned the need to develop region-
specific energy crop solutions. What types of crops do you 
foresee could be used across the country?
    Ms.Tiller. I think it varies tremendously by region, and 
that is one of the reasons that the Sun Grant Initiative which 
Dr. South alluded to earlier was developed as a regional 
research approach to harnessing the land-grant system and 
identifying what these specific advantages are, region by 
region.
    So, for example, in the Southeast, if you look--and Senator 
Harkin mentioned, too, the maps he has seen for projections for 
switch grass and other dedicated energy crops. Because of the 
climate, the growing conditions, the infrastructure we have in 
place, I think in the Southeast we have tremendous comparative 
advantages in some dedicated energy crops like switch grass and 
perhaps some others that are being examined as well but similar 
in nature, the short rotation woody crops, hybrid poplars, 
other things like that. Forest biomass resources is certainly 
very important in the Southeast.
    As you move across the Nation, the particular advantages 
change a little bit. So do the infrastructure requirements, the 
training and know-how to improve those entire systems of 
production. But I think that, throughout the country, dedicated 
energy crops and forest crops specific to that region are going 
to be important. And as far as whether it is, you know, 
camelina, lesporilla, metham--who knows what these oilseed or 
other crops are going to be in the future--I think that we have 
a lot of research still to go to determine exactly specifically 
which crops are best suited to each region.
    Mr.Davis. As we move forward as a Congress and try to come 
up with a national solution, do you feel like we need to limit 
it to one region and one product? Or do you think we need to be 
looking at all regions and different products as we look to 
educate our workforce for the future?
    Ms.Tiller. I think it is very important that we look to all 
regions and try to identify specifically what those needs and 
advantages--comparative advantages are in those regions. I 
think that we need a fairly careful and thorough assessment to 
help guide those regional approaches, but I do think that we 
would do ourselves a disservice if we focussed specifically on 
one region, because the needs and the resources available are 
so diverse.
    Mr.Davis. This appears to me to be a very science-intensive 
undertaking that we are talking about. Are we doing a good 
enough job in K-12 preparing our workforce for the future, in 
your estimation? And leading from the K-12, do you feel like we 
ought to limit our help to just community colleges? Do you 
think we ought to be looking at land-grant institutions? 
Universities?
    Ms.Tiller. Well, I think that one of our successes 
historically has been this very integrated, broad approach that 
we have to our educational system. I think it starts early, and 
it continues on, and I think that all of the different 
approaches are a good fit for particular needs.
    I do think in the case especially of the future as we look 
toward cellulosic biofuels, I think that the role that the land 
grant universities and the postsecondary schools can play is 
tremendous. I think that the integrated research, education, 
and extension--so not only doing the research in these research 
institutions but also bringing students into the labs to work 
with the researchers, to integrate that information into the 
courses that are being taught at the graduate level in 
particular, and the opportunity then to work through extension 
and take that information out to the public being--I think that 
is a tremendous advantage and going to be a very important 
approach, although part of an integrated approach that starts K 
through 12 in moving this forward.
    Mr.Davis. Looking back at K-12 just a little bit, I know 
there are programs in vocational education, Future Farmers of 
America, FFA. Do you know if they are starting to integrate 
this into their training?
    Ms.Tiller. I am only aware of some local programs that we 
have in east Tennessee. We have a Young Biodiesel Leaders 
Program that our clean cities group, East Tennessee Clean 
Fields Coalition, has started where they go into high schools 
starting as young as sixth grade and work with the students to 
educate them about alternative fuels, how they can use them 
locally. They then go and educate their bus drivers about 
potentially using biodiesel in their fleets and others in their 
community.
    So there are programs. I am not aware of others except some 
that are very local in nature.
    Mr.Davis. Moving a little bit from education over to 
industry, do you know if any of the major agriculture firms 
like John Deere are helping assist with financial benefits of 
moving in this direction in agriculture?
    Ms.Tiller. Certainly agribusinesses look down the road and 
see this as their future as well. So, yes, I think that they 
are recognizing the opportunities that they have today to 
invest in this area and are looking for opportunities to do so.
    Mr.Davis. Dr. South, I know that you are based in the 
Northeast, and I am certainly glad that you are working with 
the University of Tennessee and Tennessee in particular, but it 
sounds like other States as well. Why did you choose Tennessee, 
why did you choose New York, and why are you looking across the 
country?
    Mr.South. The commonality between New York and Tennessee 
that was seen as some great leadership at the Governor level, 
the State level--we have certainly seen a commonality between 
those two States with leadership at the State government level 
for promotion of the programs. They both see themselves as 
States that have an opportunity with regional biomass 
availability and also the opportunity to lead in the field of 
Tennessee in particular. The Governor's budget from Governor 
Bredesen has a significant commitment in both the establishment 
of the biofuels industry at the grassroots level through 
initiatives with farmers, through initiatives with the 
University of Tennessee to develop the actual dedicated energy 
feedstock and a commitment to manufacturing.
    So I think the overall vision of needing to address the 
issues in cellulosic ethanol across the value chain rather than 
just at specifically targeted initiatives is a wonderful space 
to be. When we look at that biomass map the places that can 
grow it reside Northeast, Southeast, through those biomass 
growing areas. And the vision of Tennessee particularly against 
that is a wonderful thing, and it has led to our great deal of 
interest.
    Mr.Davis. If you were a K-12 student looking to move 
forward in this industry, where would you be looking? Would you 
be looking with just a high school diploma? A community 
college? Would you be looking to university, on-the-job 
training? Where do you think the jobs in the future are going 
to be?
    Mr.South. I believe when we look at the jobs in the plant, 
those screens that you look at when you run a process plant, be 
it an ethanol plant, a cellulosic ethanol plant, a chemical 
plant, the challenge is not to look at the data and control the 
plant, because the plant is designed to control itself. It is 
to look at where the plant is going. It is not what is now. It 
is the interpretation of what will happen in the future.
    And those skills as we have alluded to before really come 
from that in-depth understanding of processes. It is not a K-12 
level. It will happen at the community colleges, and certainly 
the leadership and the development of those cellulosic programs 
to take the next step between two substrates and new processes 
will definitely be developed out at a university level.
    Mr.Davis. Thank you.
    ChairmanBraley. Thank you.
    Member Davis mentioned something that is very important to 
my district, a company called John Deere. One of the things 
that you can find if you go to the Smithsonian Institute is the 
Waterloo Boy tractor, which was originally started by the 
Froelich Tractor Company, the first gasoline-powered tractor in 
the company in Froelich, Iowa, which is also in my district. 
Thank you very much for giving me that opening.
    There are four John Deere production facilities in my 
hometown of Waterloo, Iowa. They have a big industrial 
equipment manufacturing facility in Dubuque, Iowa, also in my 
district; and the world headquarters is in Moline right across 
from my district in Davenport, Iowa.
    Dr. Tiller, one of the things that you mentioned was the 
need for progressive research models to deal with the feedstock 
diversity that we see across the country; and what I would like 
you to do, if you wouldn't mind, is elaborate a little bit on 
what you meant by that.
    I think one of the things we are looking for is education 
and training programs that are uniform in some applications but 
also are flexible enough to deal with the diversity of 
feedstock we are going to be seeing, especially in the emerging 
cellulosic industry and other bio-energy production facilities.
    Ms.Tiller. Sure. I think that we are going to see 
tremendous change over the next few years and what we envision 
today is not going to be anywhere close to what things will 
look like in 10 years. I think they are continually evolving, 
and it is important that we recognize that. They are also very 
specific to those local resources.
    But one example that I think points out some of the 
challenges is the experience we have had over the last few 
years with some pilot production trials for switch grass as a 
dedicated energy crop. To begin with, the farmers who are 
planting it called their extension agents a few days after 
planting to ask exactly what they were looking for; and the 
response was, well, look for something in a row.
    The point is, we really know so little about a lot of these 
feedstocks right now. So we are starting from the ground level. 
We need--I think we start from the place where we are, which is 
using the existing equipment and infrastructure and knowledge 
base we have. But we have a long ways to go to optimize that 
and to refine those processes and the management and the 
harvesting, the transportation, storage, logistics, all the 
various aspects that go into turning something from a crop into 
a feedstock. We have a long ways to go to wind up with a very 
efficient system.
    And it is important, too, I think to note that, right now, 
the model for the cellulosic ethanol biorefineries, about half 
of their costs are tied up in getting the feedstock to the 
plant and ready to use.
    ChairmanBraley. Dr. South, one of the things I am very 
proud of is that I graduated from Iowa State University, the 
birthplace of the digital computer and also home as a graduate 
student to George Washington Carver. One of the things that 
George Washington Carver taught us was that there are endless 
opportunities to derive benefits from plants. And having grown 
up in a State where my parents both grew up on farms in Iowa 
during the Depression, my family has been farming and teaching 
in Iowa for over a hundred years, one of the things that is 
always a huge part of the agricultural experience was a very 
strong sense of stewardship.
    When I look at some of the research that is taking place 
around the country, including at Iowa State, and looking at a 
diverse variety of feedstocks even outside this country that 
could be used to try to reduce not just America's dependence on 
petroleum-based fuels but the world's dependence on petroleum 
based fuels, one of the things I am interested in is how do we 
take some of the education and experience in this bio-energy 
industry and transfer it across the world to developing 
countries who are under the oppressive hold of petroleum-based 
energy producers and are being kept back in their own economic 
development? I am interested if you have any thoughts on how we 
can move to that level as well.
    Mr.South. I think the key to moving to that level is the 
establishment of the industry. There is just so much latent 
demand. We have interest all over the world talking to us about 
how do we develop this industry in our country. And the 
challenges even in a developed country like the U.S., where 
there is a lot of incentive, a lot of market pull for this 
material, we need to put in place those things that will 
bootstrap the cellulosic ethanol industry and meet some of our 
own goals. Because the proof of concept of this industry will 
be when we have multiple biorefineries running 24/7 and 
producing cost-effective ethanol.
    When that happens, not understating the ease in which it 
can be done, but the pull that is coming from those countries 
that are talking is already there. The researchers, the 
investment, it is already waiting to happen. The biomass growth 
areas of the world through the equatorial regions are the areas 
that are ideally suited for biomass ethanol, and they are 
ideally suited to be cost-effective in doing so, and they have 
a real need.
    The issue is going to be again around the types of thing 
that Kelly was talking about. There is from one end to the 
other of this value chain a need to move it up a step, to take 
it to a commercial application; and it needs to be fostered in 
a way that we get through the transition period into that 
commercial application.
    ChairmanBraley. Thank you.
    Mr. Rastetter, one of the things that all of us in the 
Small Business Committee are very interested in is the impact 
on Main Street of the decisions that we make here in Congress. 
What I would like you to do, if you would be willing to, is 
share some of your observations about how ethanol producers in 
Iowa and around the country have had an impact on Main Street 
merchants, stores and the communities that you serve.
    Mr.Rastetter. One of the interesting aspects of it is just 
all the facets that it impacts.
    To Congressman Davis' earlier question about people teaming 
with FFA, the Renewable Fuels Association has started funding 
significant curriculum development with the FFA group to hit 
all the facets that you think about. If you think about the 
impact of biofuels, it impacts agronomy and stewardship of the 
soil and research having to do with the amount of stover that 
you can take off of eventually. So that we are prepared for 
cellulosic ethanol to biotech genetics on corn, to precision 
farming on GPS from John Deere, to local dealers from a 
transportation standpoint instead of a market where we ship 
corn overseas and a unit train creates a couple of jobs. We 
have hundreds of new jobs created in logistics and management 
of that, whether it be from actual truck driver to the 
education aspect.
    To communities like Fairbank, Iowa, where we spend $110 
million in a community of 400 people, that on a per capita 
basis would be unheard of. That for the next generations to 
come that plant will be producing some form of energy. And it 
may not be exactly what we have today, but it will transverse 
and continue to develop, to education, to people having 
interest.
    The comments that--we have hired half a dozen engineers 
that range from working in Oman to South America, that have 
come back to Iowa that graduated from Iowa State, to farm kids 
who got jobs around the country. So from local businesses and 
all the infrastructure created in the turnover, to corn farmers 
who now have land values that have increased over 20 percent 
because they don't need government subsidies to survive when 
they have a price that is reflective of the value. To now an 
infrastructure and investments that will continue to increase 
yields and the technology and starch levels of corn that will 
allow us to extract more ethanol from that corn, to livestock 
producers who are now doing research and substituting 
distillers grain for corn and soybean meal they previously have 
had.
    It is really hard to describe in detail out the facets of 
it, but within that there are literally hundreds of jobs 
created. When you think about a plant our size that eats 39 
million bushels of corn and sends a third of that back to 
livestock feed, ships the rest to add to fuel and the ensuing 
benefit to the economy that happens.
    ChairmanBraley. The States of Iowa and Ohio are sometimes 
confused by people on the east coast and the west coast. But 
the State of Ohio has a great combination of rural parts of the 
State, great educational institutions, and a great 
manufacturing history. So I am very pleased to yield to the 
ranking member of the full Committee, Steve Chabot, and would 
ask him to share his comments or questions with our panel at 
that time.
    Mr.Chabot. I thank the chairman for yielding.
    I would just note that clearly the best part of Ohio is 
around the southern part of Cincinnati, which happens to be my 
district. But I do appreciate the substance of this hearing, 
and we have been ably represented by the gentleman from 
Tennessee, Mr. Davis.
    I don't have any specific questions, but I would just 
comment that this is an area that I think is critical to the 
future of our country and our reliance upon energy and how 
important it is. This whole area that you all have been 
discussing today is of the utmost importance, so I want to 
thank you for holding the hearing.
    With that, I yield back the balance of my time.
    ChairmanBraley. Thank you very much.
    Mr. Caupert, one of the follow-up questions I had for you, 
as you look for people coming into your program right now, can 
you give us a little more detailed sense of where those people 
come from, the types of backgrounds they bring, and what 
varying levels of training they need once they show up at 
Edwardsville?
    Mr.Caupert. Great question, Chairman Braley; and we thank 
you for it.
    As I mentioned before, the folks who are working in this 
industry they literally change from the GEDs to the Ph.D.s; and 
that is what we see come in our doors.
    One of the programs that we are most proud of is a program 
that we launched through a wired grant in January of this year 
in which displaced workers, a group of people that we have not 
even touched on today, but displaced industrial tradespeople 
from the automotive industry in Michigan and other places 
around the country are traveling to our facility so they have 
something that they can put on their resume to relocate them, 
if you will, and find a good-paying, quality job.
    We range from that to people from Dartmouth and MIT. The 
folks from Mascoma have visited our facility. Really, the sky 
is the limit in the types of people that come to our program.
    One of the things I would encourage everybody to do in free 
time is to read the exit interview of one of our recent interns 
that I included in my written testimony. Billy Whitlock came 
out of Michigan State university as a young chemical engineer 
who was full of theory but had no applied experience 
whatsoever. I remember Billy's first day because his first day 
coincided with my first day. And he looked at me and he said, 
John, so that is what a pneumatic pump is. And I think that 
tells the story pretty comprehensive about our program.
    ChairmanBraley. Dr. Keir, one of the things that we know 
about educational institutions as a whole is they are 
constantly attempting to try to identify emerging needs for 
education and training; and meeting the demands of a highly 
skilled workforce will be an issue that is an ongoing concern 
in the renewable fuels industry and renewable energy industry. 
As you look at the role of community colleges in that mix, how 
do you foresee future trends impacting the type of flexibility 
you need to provide in the curriculum that you are offering?
    Ms.Keir. That is also a really good question.
    One of the things that I wanted to talk a little bit about 
is the need for faculty development and the development of 
ever-changing curriculum that is being offered to middle 
school, community college, and 4-year university faculty. The 
program that we have, the A tech program, we partner with MIT 
and Iowa State and several other research industries; and what 
our job is to take the new scientific knowledge or the new 
engineering knowledge that is pretty much un-understandable to 
most people--I needed a lot of tutoring just to do this--and 
transform it into curriculum that then is available throughout 
the Nation to community college faculty, to community colleges 
and to K-12. So some sort of funding and system so that you can 
continually quickly refresh your curriculum is absolutely 
essential.
    I think the point I was trying to make earlier, too, is 
that everybody finds this very exciting; and so every community 
college in Iowa has stepped forward. So we have programs 
sprouting up everywhere. So there is a lot of duplication and 
not enough collaborative, systematic sharing of curriculum and 
faculty development.
    ChairmanBraley. Thank you for your participation today. It 
was good to have you here.
    One of the things that I am interested in, Mr. Litterer, is 
the impact on profitability and opportunities for success for 
farmers that the renewable fuels bio-energy industry is 
providing. One of the things we know is that there is a 
significant amount risk that farmers are exposed to every year: 
price dynamics, unpredictable weather and many, many other 
variables. Can you talk to us a little bit about how renewable 
energy production has become a form of risk management for 
farmers by allowing them to diversify their investment?
    Mr.Litterer. Thank you, Chairman. Yes, good question.
    As you are well aware, a lot of our members are also 
investors in ethanol plants. So they have taken a piece of 
ownership, if you will, into an alternative way to market their 
corn. So, for them, it has become a win-win deal. They can 
either sell into the marketplace or get a return through their 
investment in the ethanol plants. So that has been a very 
important aspect.
    But, more importantly, I think going forward it has 
basically driven the demand for corn and not just corn, all 
commodities. It has helped raise the price level of all 
commodities not just in the United States but worldwide. This 
is a beneficial thing worldwide for farmers. We don't operate 
in a vacuum in the United States in producing corn. There are 
other areas in the world that are doing corn production, too: 
Argentina, Eastern Europe, South Africa.
    And then that is going to create demand for the wheat, the 
other feed grain, to feed the livestock industry. So it is a 
complex question. But what has happened is good for farmers 
around the world.
    I think, as Mr. Rastetter alluded to early, we don't have 
to rely on a government subsidy because of low corn prices. 
This is creating a unique opportunity in our business. Again, 
just the price of the commodity itself but also the investment 
possibilities and opportunities that we, as farmers, are 
operating in this growing industry.
    ChairmanBraley. Well, this has been a fascinating hearing 
for me personally. One of the reasons that I am so excited 
about the subject of the hearing is that it combines three of 
my passions: education, agriculture and energy.
    What I would like to do is get each of the panelists, 
starting with Dr. South, 1 minute to just wrap up and tell us 
what message you would like us to take away from this hearing 
as it relates to your individual testimony, what you would like 
to see us be doing in Congress in this area. But just give you 
an opportunity to close with some closing remarks.
    Mr.South. Thank you.
    Firstly, thanks for the opportunity to speak today. It is 
an important topic to us, obviously.
    I think the requirements for education across the board in 
this sector are huge. To be the industry we aspire to be in 
terms of this impact on U.S. energy supply, if we just take the 
percentages and multiply across against what the R&D that goes 
into the petroleum industry is versus what it would be against 
what is our nascent cellulosic industry and project those down 
into the requirements we are going to have across our 
postsecondary school education, I think we have major 
challenges ahead of us. The great thing is there is a lot of 
focus coming in now, and we applaud the leadership that is 
being shown by the Committee in doing so.
    From our perspective, the most important thing we are going 
to do to hone the requirements for this education is get on the 
ground as quickly as possible and get the operational 
experience that can really drive out operational excellence in 
manufacturing and bringing new technologies through to market.
    So, from that perspective, the right things are being done. 
We need to make sure that we can actually establish the 
industries and meet some of the very, very aggressive goals 
that the U.S. Congress is setting for us.
    Ms.Tiller. Thank you.
    I think that as we look toward the future and the bright 
opportunities that a cellulosic-based ethanol and biofuels bio-
energy bring in addition to the existing renewable energy 
sector that we have, it is important to recognize that there 
are really two stages; and I certainly applaud you for looking 
ahead to that second stage where this industry is well 
developed and well on its way to achieving those goals. But 
there is a precursor to that, and I think the land-grant 
universities in particular have a real role to play in the 
research and development and deployment of those technologies 
that are required in order to achieve that future vision.
    I think also it is very important to remember as we move 
forward that this is likely to develop as a very region-
specific approach, and we need to be sure that we are 
evaluating those region-specific advantages and moving forward 
in region-appropriate ways.
    Ms.Keir. I would reiterate the need to be very systematic 
about this, to find a way to share the knowledge and not end up 
with a lot of duplicative training programs in community 
colleges and K-12 that haven't been informed by the science, 
finding ways, as in the New Era bill, to have some champions 
and organized structure and then to have a structure for 
training at all of the levels that is very quickly infused with 
the new knowledge that is going to come up.
    And I also want to agree that, while the community 
colleges, particularly because of their location and their 
workforce development emphasis, are really a good place to 
center the leadership or the forward momentum of this, none of 
this will happen without partnerships with the research 
universities and the land-grant universities because that is 
where the new knowledge is going to come and continually 
infuse. And none of is going to happen without a partnership 
with the K-12 sector. That is where we will motivate young 
people to prepare and be interested in these careers when they 
have so many other choices now in the United States.
    Mr.Rastetter. From a public policy standpoint, the 
government has asked private industry and agriculture to 
develop the biofuels industry. We have responded with that. The 
industry has invested literally billions of dollars to support 
that commitment. And as we look to touch the broad sectors of 
agriculture all over the country as it moves into cellulosic 
ethanol, biomass, energy savings, agronomic work, education and 
curriculum, and the ability to have a fluid program that is 
free of government bureaucracy when community colleges need to 
have flexibility as those curriculums change and as land-grant 
universities and research universities need to downstream that 
technology improvements and information is going to be 
critical.
    So the machine is working. The train is leaving the track 
and is clearly responding to the national call, and if you can 
overlay that with education benefits you are going to see long-
term generational benefit to the country and energy 
independence.
    Mr.Litterer. Just to reiterate a couple of points already 
made. I think this whole energy bio-energy field is going to be 
an evolution. In other words, we are not here today and that is 
the way it is going to be down the road. It is going to evolve. 
Part of that is going to be cellulosics building on even with 
corn. Corn can contribute significantly with the cellulosic 
portion and the fiber and the kernel and some of the corn 
stocks and cob so forth.
    So I think the educational part of this is going to be an 
evolution in all these things that are going to change because 
we are going to an evolving industry.
    Secondly, and it wasn't mentioned today because we are 
focusing on energy, but biorenewables. I was at a grand opening 
of a plant in Loudon, Tennessee, and that plant is producing 
high-fructose corn syrup, ethanol, and it is producing 
polymers. Polymers, those are starch based from corn there. But 
they are also going to have great potential in the future, too; 
and it is something that our educational institutions are going 
to have to pay attention to.
    Mr.Caupert. Mr. Chairman, there are four things.
    Number one, there is no shortage of people that are 
available to work in this industry. The shortage is of 
qualified people.
    Number two, training clearly needs to go beyond textbook 
learning, need to be applied learning.
    Three, I completely agree with Dr. Keir that there 
certainly needs to be more collaboration and a systematic 
approach to the education and training that takes place.
    And, finally, the biofuels industry does not know State 
borders. Therefore, the education and training that takes place 
needs to be national in focus irregardless of ZIP Code.
    ChairmanBraley. Thank you.
    Member Chabot, do you have any final remarks that you would 
like to share with the Committee?
    Mr.Chabot. No, just, once again, I thank the panel. I will 
review the testimony they have given today, and I thank you for 
holding the hearing.
    ChairmanBraley. The final comment I would like to share 
with everyone here is one of hope. When I go home to Waterloo, 
Iowa, on the weekends I look right across the street and I see 
the house that Jessica Lange lived in when she came to film the 
movie "Country", which was an attempt to capture the despair of 
the farm crisis of the 1980s. And as I drive around the 
countryside in my district and I see the Hawkeye renewables 
ethanol plant in Fairbank and I see new energy and focus 
throughout my district, throughout my State, and as someone who 
grew up in a small town of 1,500, working on farms and in grain 
elevators, it is very, very exciting seeing people taking 
control of their destiny.
    We in Congress need to help them by helping provide the 
next generation of education, training and experience to make 
sure that we can be moving in a new energy focus and that we 
can transfer what we learn throughout the world to reduce our 
dependence on petroleum-based fuels.
    So I thank all of our witnesses for coming; and, before we 
adjourn, I ask unanimous consent that members have 5 days to 
submit statements and supporting materials for the record.
    Without objection, so ordered.
    The meeting is now adjourned.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T6106.001
    
    [GRAPHIC] [TIFF OMITTED] T6106.002
    
    [GRAPHIC] [TIFF OMITTED] T6106.003
    
    [GRAPHIC] [TIFF OMITTED] T6106.004
    
    [GRAPHIC] [TIFF OMITTED] T6106.005
    
    [GRAPHIC] [TIFF OMITTED] T6106.006
    
    [GRAPHIC] [TIFF OMITTED] T6106.007
    
    [GRAPHIC] [TIFF OMITTED] T6106.008
    
    [GRAPHIC] [TIFF OMITTED] T6106.009
    
    [GRAPHIC] [TIFF OMITTED] T6106.010
    
    [GRAPHIC] [TIFF OMITTED] T6106.011
    
    [GRAPHIC] [TIFF OMITTED] T6106.012
    
    [GRAPHIC] [TIFF OMITTED] T6106.013
    
    [GRAPHIC] [TIFF OMITTED] T6106.014
    
    [GRAPHIC] [TIFF OMITTED] T6106.015
    
    [GRAPHIC] [TIFF OMITTED] T6106.016
    
    [GRAPHIC] [TIFF OMITTED] T6106.017
    
    [GRAPHIC] [TIFF OMITTED] T6106.018
    
    [GRAPHIC] [TIFF OMITTED] T6106.019
    
    [GRAPHIC] [TIFF OMITTED] T6106.020
    
    [GRAPHIC] [TIFF OMITTED] T6106.021
    
    [GRAPHIC] [TIFF OMITTED] T6106.022
    
    [GRAPHIC] [TIFF OMITTED] T6106.023
    
    [GRAPHIC] [TIFF OMITTED] T6106.024
    
    [GRAPHIC] [TIFF OMITTED] T6106.025
    
    [GRAPHIC] [TIFF OMITTED] T6106.026
    
    [GRAPHIC] [TIFF OMITTED] T6106.027
    
    [GRAPHIC] [TIFF OMITTED] T6106.028
    
    [GRAPHIC] [TIFF OMITTED] T6106.029
    
    [GRAPHIC] [TIFF OMITTED] T6106.030
    
    [GRAPHIC] [TIFF OMITTED] T6106.031
    
    [GRAPHIC] [TIFF OMITTED] T6106.032
    
    [GRAPHIC] [TIFF OMITTED] T6106.033
    
    [GRAPHIC] [TIFF OMITTED] T6106.034
    
    [GRAPHIC] [TIFF OMITTED] T6106.035
    
    [GRAPHIC] [TIFF OMITTED] T6106.036
    
    [GRAPHIC] [TIFF OMITTED] T6106.037
    
    [GRAPHIC] [TIFF OMITTED] T6106.038
    
    [GRAPHIC] [TIFF OMITTED] T6106.039
    
    [GRAPHIC] [TIFF OMITTED] T6106.040
    
    [GRAPHIC] [TIFF OMITTED] T6106.041
    
    [GRAPHIC] [TIFF OMITTED] T6106.042
    
    [GRAPHIC] [TIFF OMITTED] T6106.043
    
    [GRAPHIC] [TIFF OMITTED] T6106.044
    
    [GRAPHIC] [TIFF OMITTED] T6106.045
    
    [GRAPHIC] [TIFF OMITTED] T6106.046
    
    [GRAPHIC] [TIFF OMITTED] T6106.047
    
    [GRAPHIC] [TIFF OMITTED] T6106.048
    
                                 <all>

</pre></body></html>
